<html>
<title> - VETERANS EMPLOYMENT AND GOVERNMENT CONTRACTORS</title>
<body><pre>[Senate Hearing 112-685]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-685

 
                        VETERANS EMPLOYMENT AND
                         GOVERNMENT CONTRACTORS

=======================================================================

                                HEARING

                               before the

              AD HOC SUBCOMMITTEE ON CONTRACTING OVERSIGHT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 5, 2012

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
75-216                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e796e715e7d6b6d6a767b726e307d717330">[email&#160;protected]</a>  


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
      Nicholas A. Rossi, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee


              AD HOC SUBCOMMITTEE ON CONTRACTING OVERSIGHT

                       CLAIRE McCASKILL, Chairman
THOMAS R. CARPER, Delaware           ROB PORTMAN, Ohio
MARK L. PRYOR, Arkansas              SUSAN M. COLLINS, Maine
JON TESTER, Montana                  JOHN McCAIN, Arizona
MARK BEGICH, Alaska                  JERRY MORAN, Kansas
                     Margaret Daum, Staff Director
                Brian Callanan, Minority Staff Director
                       Kelsey Stroud, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator McCaskill............................................     1
Prepared statement:
    Senator McCaskill............................................    35
    Senator Carper...............................................    39

                               WITNESSES
                         Tuesday, June 5, 2012

Theodore L. (Ted) Daywalt, President and Chief Executive Officer, 
  VetJobs........................................................     5
Spender Kympton, Chief Operating Officer, The Mission Continues..     7
Ramsey Sulayman, Legislative Associate, Iraq and Afghanistan 
  Veterans of America............................................     8
Pamela Hardy, Senior Manager, Diversity and Inclusion Team, Booz 
  Allen Hamilton.................................................    11
Sally Sullivan, Executive Vice President, ManTech International 
  Corporation....................................................    12

                     Alphabetical List of Witnesses

Daywalt, Theodore L.:
    Testimony....................................................     5
    Prepared statement...........................................    41
Hardy, Pamela:
    Testimony....................................................    11
    Prepared statement...........................................    58
Kympton Spender:
    Testimony....................................................     7
    Prepared statement...........................................    52
Sulayman, Ramsey:
    Testimony....................................................     8
    Prepared statement...........................................    55
Sullivan, Sally:
    Testimony....................................................    12
    Prepared statement...........................................    63

                                APPENDIX

Questions and responses for the Record from:
    Mr. Sulayman.................................................    68
    Ms. Hardy....................................................    70
    Ms. Sullivan.................................................    72
Senator McCaskill's fact sheet...................................    74
Statements submitted for the Record:
    Booz Allen Hamilton..........................................    80
    Patricia A. Shiu, Office of Federal Contract Compliance 
      Programs, Department of Labor..............................    82


                        VETERANS EMPLOYMENT AND
                         GOVERNMENT CONTRACTORS

                              ----------                              


                         TUESDAY, JUNE 5, 2012

                                   U.S. Senate,    
          Ad Hoc Subcommittee on Contracting Oversight,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
Room 342, Dirksen Senate Office Building, Hon. Claire 
McCaskill, Chairman of the Subcommittee, presiding.
    Present: Senators McCaskill, Carper, and Begich.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. This hearing of the Subcommittee on 
Contracting Oversight of the Senate Committee on Homeland 
Security and Governmental Affairs will come to order.
    I am happy today to be discussing a subject that I think 
every American should be concerned about, and that is the 
employment of our veterans. At the hearing today, we are going 
to talk about an alarming trend in the employment of the best 
that America has.
    Service in the active duty military or the National Guard 
or Reserve has historically been an advantage in seeking 
employment. Recruiters for the military promise that service 
could lead to careers. Yet after more than a decade of war, we 
are seeing something very different, that the men and women who 
have served so honorably in Iraq and Afghanistan are facing 
unprecedented challenges in finding employment.
    Last week, the Department of Labor (DOL) released its 
latest unemployment figures, which show that the unemployment 
rate in the United States is currently 8.2 percent. Those same 
figures show that veterans who have served on active duty since 
September 2001 have an unemployment rate of 12.7 percent. The 
unemployment rate for veterans who have served since September 
2001 has also been increasing. In May 2011, the unemployment 
rate for these veterans was 12.1. In May 2010, it was 10.6. 
These numbers are a stark reminder that we are not doing enough 
to help our veterans and that we must take new and urgent steps 
to improve our national efforts to make sure veterans have the 
tools and the opportunities they need to find careers after 
they leave the military.
    Part of the problem is that there are significant barriers 
that veterans face in seeking employment. Veterans are finding 
that all of their training and experience cannot simply be 
translated into similar civilian jobs. They may be finding 
employers who feel unsure about hiring veterans and members of 
the National Guard and Reserve (NG&R) because they do not 
understand what service requires. Breaking down these barriers 
is critical and requires innovative and comprehensive 
responses.
    Part of the problem is the government is not doing what it 
should. Simply telling the veteran to go down to his or her 
local employment office or to search the job boards, as we have 
heard happens, is just not enough. Many different Federal 
agencies, including the Defense Department (DOD), the Veterans 
Administration (VA), and the Department of Labor, have programs 
to work with veterans on employment issues and some are more 
successful than others. Government contractors are well 
situated to be major employers of veterans, and many are.
    Contractors are also required by law to take affirmative 
action to hire veterans. Since 2002, President Bush signed into 
law a provision that requires companies with government 
contracts over $100,000 are required to post job listings at 
nationwide employment offices, to report their veteran hiring 
and employment numbers to the Department of Labor through the 
VETS-100A form, and those with 50 or more employees are 
required to develop a plan to hire veterans. The question is, 
how well are the contractors doing at this? The answer is, we 
have no idea.
    Last year, I asked the Department of Labor for the 
information collected from the government contractors for the 
past 10 years. The Department was only able to provide data for 
2009 and 2010 because it only just became electronically 
available. The Subcommittee staff prepared a fact sheet\1\ 
summarizing this information, and I ask unanimous consent that 
this fact sheet be included in the hearing record.
---------------------------------------------------------------------------
    \1\ The fact sheet referenced by Senator McCaskill appears in the 
appendix on page 74.
---------------------------------------------------------------------------
    What this fact sheet shows is that the information 
currently being collected and maintained by the Department of 
Labor is spotty and frequently inaccurate. We saw numbers that 
are obviously wrong, like seeing a company whose number of 
veteran hires is 400 percent larger than the total number of 
people working for the company. We also saw a significant 
amount of missing information. For example, the two companies 
represented here today do not even appear in the data. Both 
had, in fact, submitted the data, as required, and were able to 
produce it upon request to the Subcommittee.
    It seems that the reason for this discrepancy is with the 
Department of Labor. There are two offices within the 
Department of Labor that are responsible for collecting the 
data and overseeing enforcing compliance. That is, the Office 
of the Assistant Secretary for Veterans Employment and Training 
(VETS), the Vets Office at the Department of Labor, and the 
Office of Federal Contract Compliance Programs (OFCCP)--I will 
try not to use acronyms, it is a hazard of this job--the Office 
of Federal Contract Compliance Programs. Yet in conversations 
with the Department of Labor, the Subcommittee learned that the 
Vets Agency at Labor collects this information but never 
reviews it for any purpose, and the Office of Federal Contract 
Compliance has the authority to audit contractor compliance, 
but, in fact, conducts very few and never attempts quality 
assurance reviews.
    This does not make any sense to me. It is almost like we 
are going through the motions and do not care what the result 
is. It is called ``make work'' but have no results.
    I called this hearing today to bring together two groups 
who are actually taking steps, active steps, to promote 
contractor employment of veterans. We are here today to learn 
from some of the Nation's leading Veterans Service 
Organizations (VSOs) about the challenges facing veterans. We 
will also hear from two large and well-known businesses about 
the excellent work they are doing in recruiting and hiring 
veterans. I look forward to a constructive discussion today.
    I also want to make one point clear from the outset. The 
status quo is just not acceptable. The notion that these highly 
trained and, frankly, veterans who we know make great 
employees, the fact that we cannot get them employed, the fact 
that their unemployment level is higher than the Nation's 
unemployment level is, in fact, a shame. It is something we 
should be ashamed of.
    We cannot continue to betray the trust of our Nation's 
veterans by not doing everything in our power to make sure that 
they have access to employment. We cannot continue to invest 
scarce government resources and waste businesses' time, 
demanding they file reports which nobody pays any attention to 
and currently do not have any benefit to veterans' employment. 
We need to avoid duplication in programs, but also ensure that 
we are not taking a one-size-fits-all approach.
    This is a tall order, but when it comes to our veterans, we 
have an obligation to do everything we can. I hope this hearing 
will be a first step. I also sincerely hope the Department of 
Labor is listening, because I plan to followup with them about 
the issues that we discuss here today.
    I thank the witnesses for being here and look forward to 
their testimony.
    I know Senator Carper is on his way and wanted to make 
opening remarks when he gets here. I may indulge the witnesses 
to interrupt you for purposes of his opening remarks, but in 
the meantime, I will go ahead and introduce our witnesses and 
we will begin your testimony today.
    Ted Daywalt is the President and Chief Executive Office 
(CEO) of VetJobs. VetJobs was founded in 1999 and has become 
one of the leading Internet job boards for veterans and 
employers. Mr. Daywalt served in the Navy and Navy Reserve for 
over 28 years. He has worked in the private and public sector 
and is also Chairman of the Atlanta Regional Military Affairs 
Council and Director of the College Educators for Veterans 
Higher Education. Mr. Daywalt also sits on the Board of 
Governors for the International Association of Employment Web 
sites, where he chairs the OFCCP Committee, which is the 
acronym for the folks that are supposed to be doing compliance 
at the Department of Labor.
    Spencer Kympton is the Chief Operating Officer (COO) of The 
Mission Continues, which is based in St. Louis, Missouri. I am 
especially proud to welcome him here today. Founded in 2007, 
The Mission Continues is a nonprofit organization that works to 
empower post-9/11 veterans by pairing them with fellowships at 
not-for-profit organizations in their communities. Mr. Kympton 
is a former Army officer and a graduate of West Point. Prior to 
joining The Mission Continues, Mr. Kympton worked at McKinsey 
and Company and held the position of Vice President of 
Recruiting for Teach For America.
    Ramsey Sulayman is a Legislative Associate for Iraq and 
Afghanistan Veterans of America (IAVA). Iraq and Afghanistan 
Veterans of America was founded in 2004 to bring together and 
empower the newest generation of wartime veterans. IAVA has 
helped countless returning veterans with programs focusing on 
physical and mental health, education, and careers. Mr. 
Sulayman is a former Marine officer who served in Operation 
Iraqi Freedom (OIF) as an infantry platoon commander and 
company executive officer.
    Pamela Hardy is a Senior Manager in the Diversity and 
Inclusion Team at Booz Allen Hamilton, where she is responsible 
for all diversity hiring efforts. Ms. Hardy has a Master's in 
human resources management and has worked in various recruiting 
and consulting positions and specializes in diversity 
recruiting strategies and techniques.
    Sally Sullivan is an Executive Vice President of ManTech 
International Corporation and leads ManTech's public affairs, 
communications, and business development functions. Prior to 
joining ManTech, Ms. Sullivan served as Vice President for 
Defense, Space, and Secured Infrastructure at Bechtel National 
and Sector Vice President for Business Development at Northrop 
Grumman. You have hung out in the defense sector, have you not.
    Ms. Sullivan. Yes, Senator.
    Senator McCaskill. It is the custom of this Subcommittee to 
swear in all witnesses that appear before us, so if you do not 
mind, I would like to ask you to stand.
    Do you swear that the testimony that you will give before 
this Subcommittee will be the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Daywalt. I do.
    Mr. Kympton. I do.
    Mr. Sulayman. I do.
    Ms. Hardy. I do.
    Ms. Sullivan. I do.
    Senator McCaskill. Thank you, and let the record reflect 
that the witnesses have all answered in the affirmative.
    We will be using a timing system today. We will not be 
strict, so be comfortable. Do not worry that we are going to 
hit a buzzer or a gong. We would ask that your oral testimony 
try to be around 5 minutes. Your written testimony will be 
printed in the record in its entirety.
    And if you would begin, Mr. Daywalt, we appreciate you 
being here.

 TESTIMONY OF TED L. DAYWALT,\1\ PRESIDENT AND CHIEF EXECUTIVE 
                        OFFICER, VETJOBS

    Mr. Daywalt. Thank you, Madam Chairman. I appreciate you 
having me here and I want to thank the staff here, as well.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Daywalt appears in the appendix 
on page 41.
---------------------------------------------------------------------------
    VetJobs has a unique vantage point in this discussion as by 
the nature of our business over the last 13 years, VetJobs has 
dealt with veterans and their family members on a daily basis 
who are pursuing employment with government contractors. A big 
part of our membership base are government contractors, and 
VetJobs assists all veterans and their family members to find 
work. From our perspective at VetJobs, we find that, for the 
most part, government contractors are enthusiastic employers of 
veterans.
    When looking at veteran employment, it helps to understand 
that from an employer's perspective, there are three groups 
that comprise the post-military service veteran employment 
picture. The first group would be those who are transitioning 
off active duty with no further military obligation who are 
most frequently referred to just as veterans. This group is the 
most desirable of the veteran groups from which employers 
prefer to hire since candidates have no further military 
obligation and come with many skills and the attributes wanted 
by employers.
    The second group is comprised of the Federal Reservists of 
the Army, Navy, Air Force, Coast Guard, and Marine Corps. While 
these veterans have the same attributes as the transitioning 
military, they are subject to being called up on a regular 
basis.
    The third group is the National Guard. While all three 
groups are veterans, it helps to make the distinctions when 
analyzing how the veterans are being employed or why employers 
prefer one type of veteran over another. In going to the 
numbers you cited at the opening, Madam Chairman, the biggest 
part of the veteran unemployment problem is in the National 
Guard. For the most part, those coming off active duty are 
getting jobs, not that there are not problems, but they are 
finding employment. The overall unemployment for all veterans 
in May was only 7.7 percent current population survey (CPS).
    Of the three groups, the National Guard has unique problems 
and is the least preferred source of veterans. Unlike active 
duty component members when National Guard component members 
return from war they are demobilized and thus do not have a 
ready source of income unless they can find or have a civilian 
job. Given the bias against hiring National Guard members due 
to the call-up policies and high operation tempo, National 
Guard members have problems maintaining a continuum of service 
with a civilian employer.
    Additionally, since the National Guard component member 
belongs to the State and reports to the Governor of a State or 
a Territory, the National Guard personnel are used for local 
emergencies, such as flooding and hurricanes, security, which 
takes them away from their employer. For example, the National 
Guard in Georgia, which is where we are headquartered, has had 
six 1-year-plus call-ups in the last 10 years. Now, that makes 
it really hard to keep a job, even if you are only on three of 
them.
    Many studies have found that due to the constant call-ups, 
employers shy away from hiring active members of the National 
Guard and Reserves. Business Law Review, Workforce Management 
and the Society of Human Resource Management (SHRM) have done 
studies that show that upwards of 70 percent of employers will 
not now hire as a new employee an active member of the National 
Guard. Fortunately, many of the government contractors are 
supporters of the National Guard and Reserve and this is 
important since the National Guard and Reserve now represents 
over 50 percent of our total fighting force.
    It is important to understand why employers make hires. 
Some Department of Labor officials like to tout how many 
unemployed people there are for each job opening in the country 
and bemoan the fact that employers of horrible profit-making 
companies are not hiring the unemployed. DOL and other 
government officials who make these statements are displaying a 
gross misunderstanding of how our economy works and why 
employers hire candidates.
    Employers do not hire someone just because they are 
standing and breathing or they are unemployed. Employers hire 
candidates to fill a need within the company. The bottom line 
is employers look for qualified candidates to hire. If one were 
to ask how many qualified candidates exist for each job opening 
in the company, you would have huge, very large, negative 
numbers in disciplines like health care, engineering, 
maintenance, electricians, welders. Right now, they are paying 
$45 an hour with all the overtime you can get for welders in 
the upper Midwest and they cannot find enough welders. It is 
going to probably go to $50 by the end of the summer.
    Government contractors are major employers. Many have 
discussed with me the problems of finding qualified candidates 
to hire. And for that reason, government contractors like to 
hire veterans because, generally, they have excellent skill 
sets and they have the attributes that they want.
    In my written testimony, I use an example of a stellar 
government contractor, BNSF Railroad. You have a couple others 
sitting right here at this table. They are to be commended for 
their proactive hiring of veterans.
    Also in my written testimony, I review the obstacles that 
hinder government contractors from hiring veterans. Those 
obstacles include the VETS-100 report, which in my personal 
opinion is kind of a waste of time because it is not relevant, 
it is not timely, and it is not actionable. The Office of 
Federal Contract Compliance Program actually kind of 
disincentivizes companies who want to hire veterans, and there 
are huge problems in the Transition Assistance Program. All 
need to be reviewed, and in the case of VETS-100, I would 
recommend you get rid of it.
    Thank you for your time. I trust the information presented 
will be of assistance. I will be happy to answer any questions 
you have, ma'am.
    Senator McCaskill. Thank you very much, Mr. Daywalt.
    I welcome Senator Begich from Alaska here. Thank you, 
Senator Begich, for joining us. Mr. Kympton.

 TESTIMONY OF SPENCER KYMPTON,\1\ CHIEF OPERATING OFFICER, THE 
                       MISSION CONTINUES

    Mr. Kympton. Madam Chairman and Members of the 
Subcommittee, thank you for inviting me to participate in these 
important hearings. Based on my experience as a veteran and my 
service at The Mission Continues, I believe that this 
Subcommittee is doing work that is critical to the success of 
today's generation of veterans.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kympton appears in the appendix 
on page 52.
---------------------------------------------------------------------------
    Today, I am testifying as a West Point graduate and former 
Army helicopter pilot and as a veteran who sought meaningful 
employment after military service. I now serve as the Chief 
Operating Officer of The Mission Continues, a national 
nonprofit organization where we have worked with over 350 
veterans to pursue successful transitions to civilian life.
    Based on these experiences with veteran recruitment and 
retention, I believe that there are several key lessons that 
Federal contractors and corporate leaders can apply to 
successfully tap into the great skills of today's veteran. 
Applying these lessons will strengthen their organizations 
while also building successful transitions for veterans.
    At The Mission Continues, we create successful transitions 
by engaging veterans in 6-month community service fellowships. 
Today, a cavalry scout mentors hundreds of children at the Boys 
and Girls Club. A Marine Corps sergeant helps his community 
prepare for disasters and emergencies through the American Red 
Cross. An Army communications specialist teaches English as a 
Second Language to immigrant children and their parents.
    We introduce these fellows to a meaningful mission. We 
welcome them onto a distinct team. And we ask them to don a new 
uniform of service. As they serve, we provide them with living 
stipends and mentors. At the end of their fellowship, we will 
challenge them to mark their lifetime commitment to service by 
executing a service project in their community. After their 
fellowship, they move on to realize their post-fellowship goal 
of full-time employment, continued education, or an ongoing 
role of service in their community.
    Our experiences with these fellows and with more than a 
thousand veterans who applied for fellowships have shown us 
this. When you connect veterans to a meaningful mission, ask 
them to join a distinct team, and challenge them with a set of 
goals that lead to definable impact, they excel. Just as they 
excelled in their military service, they again excel in their 
citizen service.
    A primary factor in our selection and placement of fellows 
is the passion they have for service. The cavalry scout serves 
at the Boys and Girls Club because he is fulfilled by mentoring 
youth. The Marine readies his community because he is 
passionate about emergency response. Reconnecting to a 
meaningful mission has been critical to their success.
    Our fellows are further enriched by the renewed connection 
to a team. As you know, all enlistees and officers take an oath 
to support and defend the Constitution upon entering the 
military. They then join their military units, each of which 
possesses a distinct identity and strong traditions. Recently, 
we gathered more than 100 veterans and awarded them Mission 
Continues Fellowships. We asked these fellows to take a similar 
oath and join this distinct new team. In front of thousands of 
fans at a Major League Baseball game, wearing sharp royal blue 
Mission Continues polo shirts, standing at attention alongside 
their new comrades in arms, these fellows proudly recited an 
oath of service. They walked off the field motivated and eager 
to serve.
    While they serve, we also require that our fellows set and 
achieve goals. They each identify at least three goals for the 
impact they will have in their community. They identify a post-
fellowship goal that will impact their own lives for years. We 
hold them accountable to those goals and we partner in their 
success.
    Roxley Pratt grew up in war-torn Sierra Leone. As a child, 
he marveled at the sentries guarding the U.S. Embassy there. He 
decided then that he wanted to be a Marine. Years later, after 
escaping the siege of his city and immigrating to America, he 
enlisted in the United States Marine Corps. He honorably served 
for 6 years and his service included deployments to Iraq. Upon 
his return, people thanked him for his service, but when it 
came to landing a job, he struggled to get interviews. 
Unemployed and unable to translate his military skills at job 
fairs in Southern California, Roxley found The Mission 
Continues. Driven by his own experiences with homelessness and 
his personal responsibility to assist those less fortunate, he 
earned a fellowship with Habitat for Humanity. He is 
reconnected to a mission that is important to him. He is 
working on distinct teams, his team at The Mission Continues, 
his team at Habitat for Humanity, and the teams of volunteers 
he now organizes. He is translating military skills to civilian 
skills and he is excelling.
    Roxley's story can be the story of this generation of 
veterans. It is a story of service in war and continued service 
at home.
    Madam Chairman, we are grateful for your support and the 
support of this Subcommittee. I would welcome any questions 
that you or other Members may have. Thank you.
    Senator McCaskill. Thank you. Mr. Sulayman.

 TESTIMONY OF RAMSEY SULAYMAN,\1\ LEGISLATIVE ASSOCIATE, IRAQ 
              AND AFGHANISTAN VETERANS OF AMERICA

    Mr. Sulayman. Madam Chairman, Ranking Member, distinguished 
Members of the Subcommittee, on behalf of more than 200,000 
members and supporters of Iraq and Afghanistan Veterans of 
America, I thank you for the opportunity to share our views on 
this important issue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Sulayman appears in the appendix 
on page 55.
---------------------------------------------------------------------------
    I have spent 14 years in the Marine Corps trying to execute 
the Marine Corps' two missions, winning battles and making 
Marines. As an IAVA staff member, I do not make soldiers, 
sailors, airmen, or marines, but I do try and make their lives 
better. The views expressed in this testimony reflect the views 
and analysis of IAVA and not the United States Marine Corps.
    Thank you for your attention to the pressing issues facing 
our Nation's veterans. Unemployment is arguably the most 
pressing issue facing veterans today. While recent statistics 
may indicate that the employment outlook might be getting 
better for veterans, the situation is still worse than it ought 
to be. For example, the unemployment rate for veterans 18 to 24 
years old is nearly double the rate for 18 to 24 year-old 
civilians.
    Helping veterans create their own jobs via small business 
has been touted as part of the solution. Many people have 
wondered whether Federal contracting laws and goals are being 
met, and if not, what is the best manner in which to do so.
    There are three main areas to consider: Data, outreach, and 
implementable solutions. I will address outreach first. IAVA 
believes that the logical place to begin is through the 
Transition Assistance Program (TAP), and in the Marine Corps 
(TAMP). Because TAP is now mandatory for all service members, 
it is a convenient touch point that will allow for the 
dissemination of information on Federal contracting processes 
and opportunities and the most basic level of training to the 
widest possible audience. The Small Business Administration 
(SBA) is currently developing an entrepreneurship track for TAP 
and we believe that this will be a key component in setting 
veterans up for success.
    We also believe that allowing veterans and their spouses to 
retake TAP after separating, as proposed in S. 2246, the TAP 
Modernization Act of 2012, is a necessary step. Allowing a 
veteran or spouse who has completed one track of TAP--
education, for instance--to retake a different track based on 
new circumstances, in this case an entrepreneurship track, is a 
small investment on the front end which we believe will pay big 
dividends on the back end.
    On the question of data, we must ask, what do we know and 
what do we wish to know? There is a lot of data to be had, but 
much of it is dispersed among different agencies. VETS-100 and 
100A has some meaningful data, but only as a snapshot. It is 
also not easily accessible. The information is more akin to a 
head count and misses some crucial information. Because VETS-
100 and 100A allows reporting of veterans employed at any point 
during the filing year, there is no guarantee that the level of 
veteran employment by a Federal contractor or subcontractor is 
consistently reliable or accurate. A contractor may have 100 
veterans at the beginning of the year and two at the end and 
can report 100 veterans employed.
    In addition, without the inclusion of other relevant 
information, the value of the VETS-100 and 100A forms is 
limited. Some good examples would be the North American 
Industry Classification System Codes that allow tracking the 
number of veteran contractors by industry type and the era from 
which the veteran hails. These pieces of information would help 
elucidate in which industries veteran contractors are most 
heavily and lightly concentrated and whether that force is 
declining due to age. Much of that information resides with 
SBA.
    The certification process for a service disabled veteran-
owned (SDVO) small business or veteran-owned small business 
(VOSB) should also be easy and consistent. IAVA supports 
efforts to curb fraud and abuse by ascertaining the voracity of 
SDVO or veteran-owned status, but we recognize that the 
certification process should not discourage small businesses 
with limited resources. We are concerned that the statutorily 
mandated certification process currently used by the Veterans 
Administration is too cumbersome. Extending this system to all 
Federal agencies, as has been proposed, would be unnecessarily 
burdensome on both government and small businesses.
    It is also worth noting that the VA's Center for Veterans 
Enterprise site, www.vetbiz.gov, was down for approximately 2 
weeks. It was up last Thursday and is now back down again for 
maintenance and there is no information posted as to when new 
veterans may expect to be able to register their businesses 
online.
    The Small Business Administration has relied on self-
certification and has experienced little fraud. IAVA believes 
that maintaining this system with some enhanced documentation 
requirements will help ease the burden on SDVO and veteran-
owned small businesses while helping to guarantee that the 
consideration earned through service to country is not abused.
    As far as solutions go, during research for this testimony, 
we pursued many different leads on making the system more 
efficient and increasing the number of veteran contractors. 
Many of the recommendations we heard often already exist in 
some form.
    For example, the idea of searchable centralized database of 
veteran contractors that could be used by Federal contracting 
officers and Federal contractors already exists as the Central 
Contractor Registration (CCR), and Dynamic Small Business 
Search (DSBS), systems. The use of those resources to find 
veteran contractors, even by Federal contracting officers, 
appears to be less than optimal because, we were told, many 
people choose, quote, ``the path of least resistance,'' end 
quote.
    Part of the assessment of the problem will require review 
of the use of existing systems and processes, but without data 
that is substantial, accessible, and easy to understand, 
implementing solutions is a little bit akin to shooting first 
and aiming later. Some of the reviews of this data are already 
underway and ideally will result in clarifying best and worst 
practices so good solutions can be found.
    We also believe that VA and DOL should be funnels to the 
Small Business Administration. SBA are the experts on small 
business and should be the prime actor in this area.
    IAVA strongly welcomes the efforts of Congress, the 
Executive Branch, and private industry in increasing the number 
of veteran contractors, whether those contractors are 
fulfilling government or private contracts. As part of our 
commitment, IAVA is willing to spread the word about available 
opportunities or training to our membership and the greater 
population through our extensive social media outreach. We are 
also able and willing to partner with either government 
agencies or private corporations in targeted efforts to help 
increase veteran employment through our programs, such as Smart 
Job Fairs held in partnership with the U.S. Chamber of 
Commerce.
    We believe that employment is the No. 1 issue facing the 
veterans of Iraq and Afghanistan and will only become more 
important as the war in Afghanistan ends. IAVA appreciates the 
efforts of this Subcommittee and the other witnesses and we 
look forward to helping in any way we can. Thank you, and I am 
prepared to answer any questions that you have.
    Senator McCaskill. Thank you. Ms. Hardy.

  TESTIMONY OF PAMELA HARDY,\1\ SENIOR MANAGER, DIVERSITY AND 
              INCLUSION TEAM, BOOZ ALLEN HAMILTON

    Ms. Hardy. Madam Chairman and distinguished Members of the 
Subcommittee, thank you for inviting me to testify here today. 
I testify as a Senior Manager in the Diversity and Inclusion 
Team at Booz Allen Hamilton, where I am responsible for all 
aspect of our organizational efforts to build and maintain a 
diverse and inclusive culture for all employees at the firm. 
That includes making Booz Allen an employer of choice for 
veterans.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Hardy appears in the appendix on 
page 58.
---------------------------------------------------------------------------
    Booz Allen is based in McLean, Virginia, and we have over 
80 offices throughout the United States. For nearly a century, 
our work has helped U.S. Government agencies, defense 
components, and other business and institutional clients better 
execute the most challenging government missions around the 
world.
    Forbes Magazine recently reported that Booz Allen ranked as 
the top employer for veterans, citing the approximately one-
third of our employees who have self-identified as having 
military backgrounds. We have also been recognized by the 
National Guard and the Reserve as well as by the Disabled 
American Veterans (DAV) organization for outstanding practices 
that support veterans. And we are honored to have been named in 
the top 10 of the G.I. Jobs List of top 100 military-friendly 
employers for 6 years running.
    Booz Allen leads in veterans' employment because our 
commitment to veterans and wounded warriors is part of our 
corporate culture, coordinated by our senior leadership and 
extending throughout the firm. We approach this commitment by 
involving multiple aspects and layers of our business, much 
like we integrate our various capabilities for our clients. We 
hire veterans because of this commitment and because veterans 
bring a unique knowledge and experience base to their work. Few 
can know the challenges that face our U.S. military and other 
government clients better than those who have served our 
country in uniform.
    For these reasons, Booz Allen supports the government's 
efforts to encourage the hiring of former military members and 
we believe that the current regulatory construct strikes the 
right balance in allowing contractors like Booz Allen to 
explore and develop programs that work best for their 
particular organizations. We approach military hiring, for 
instance, through a variety of creative recruitment programs, 
but we also leverage the wide range of expertise we provide to 
military clients, such as knowledge of veterans' health 
services. To help us attract and support new hires, we support 
veteran-owned businesses through our contracting organization.
    We use members of our own veteran workforce to mentor and 
support other veteran employees through employee resource 
groups, mentoring circles, education, and leadership programs 
and other means. We focus on programs to support military 
families and spouses. And, importantly, veterans and wounded 
warriors are a major focus and beneficiary of the firm's 
philanthropic efforts.
    In our prepared statement, we detail several hiring and 
retention programs that have made us so successful. In hiring, 
we foster strategic recruitment partnerships with nonprofit 
organizations in the military community. We also run a Junior 
Military Officers Program to put recently separated junior 
officers directly in contact with our military recruiting team. 
And we participate in the U.S. Army Partnership for Youth 
Success Program by pledging to provide future full-time 
employment positions for qualified Army-trained veterans.
    We retain veterans through initiatives at our firm and in 
the surrounding community. We offer an employee resource group 
known as the Armed Services Forum to give former members of the 
military a forum to interact with each other and navigate their 
transition into the civilian workplace. We have a proactive 
disability accommodations program, generous military leave, and 
return policies for Reservists, and we conduct targeted 
training and development programs to help veterans convert 
skills they learned in the military into skills they can use 
and market at Booz Allen. We have also hosted several 
collaborative community summits across the country to better 
understand and improve service delivery to veterans across 
local government, advocacy, health care, and other community 
organizations.
    While we believe our firm is already effective in employing 
veterans, we recognize that there is more work we all need to 
do. Collaboration among industry, veterans' organizations, and 
the government is of paramount importance, and we particularly 
support the Subcommittee's efforts to enhance this type of 
collaboration.
    Madam Chairman, thank you again for permitting me the 
opportunity to discuss this important issue with you today. I 
welcome any questions you may have.
    Senator McCaskill. Thank you very much. Ms. Sullivan.

   TESTIMONY OF SALLY SULLIVAN,\1\ EXECUTIVE VICE PRESIDENT, 
               MANTECH INTERNATIONAL CORPORATION

    Ms. Sullivan. Madam Chairman and distinguished Members of 
the Subcommittee, I am honored on behalf of ManTech 
International Corporation to appear before you this morning to 
share our experiences in hiring and retaining our Nation's 
veterans.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Sullivan appears in the appendix 
on page 63.
---------------------------------------------------------------------------
    ManTech is a global employer to almost 10,000 people. That 
roughly 40 percent of our employees today proudly identify 
themselves as having served or are currently serving in the 
U.S. military is evidence of the success we enjoy as a company 
and a culture that successfully attracts those exiting the 
military and assimilates them into the civilian workforce on a 
sustained basis. ManTech provides those leaving the military 
with the opportunity to join the civilian workforce, the 
opportunity to gain additional job skills and training, health 
care coverage, and the opportunity to continue to serve their 
country and support an important mission as a contractor.
    As the majority of our work today supports the U.S. 
military and intelligence community, a large number of the 
career opportunities available at ManTech are for positions 
that directly support mission requirements and typically 
require skills gained through military service and the 
possession of active security clearances. Many of our 
recruiting activities are focused on engaging those who are in 
the process of exiting the military or those who have recently 
exited.
    ManTech is an active member of more than a dozen military 
employment partnerships, such as the 100,000 Jobs Mission, the 
Military Spouse Employment Partnership, Wounded Warrior 
Project, Hiring Our Heroes, and VA for Vets. We also build and 
maintain relationships directly with colleges and universities 
that support the G.I. Bill and offer programs developed 
especially for veterans. Over the past year, we have 
participated in more than 125 hiring events spanning 72 cities 
nationwide. As a result, we connected with more than 5,000 
veterans and hired more than 2,000 of them.
    As part of our outreach to recruits, we work closely with 
the Transition Assistance Program sponsored by the U.S. 
military. Through TAP, we offer onsite assistance to active 
duty soldiers who will be leaving the military, including 
practical advice on how to develop and write a resume, how to 
interview for a job, and how the civilian job environment 
works.
    Of the many things we do to retain our employees, to 
include veterans, ManTech offers educational skills and career 
development training as well as mentorship opportunities. Our 
educational programs are offered through ManTech University 
(MTU), a first-class award-winning corporate university 
established to support the emerging training and educational 
needs of our employees. Additionally, MTU has alliances with 13 
different accredited universities offering certificates, 
Bachelor's and Master's degrees, and mini-MBAs, both online and 
in traditional classroom settings. In 2011, a large percentage 
of our veteran employees took advantage of training 
opportunities through ManTech University. More than 40,000 
courses were successfully completed by our veterans, roughly 10 
courses per veteran employee.
    Many of ManTech's contracts require foreign deployments, so 
ManTech offers two specific programs to assist family members 
of deployed individuals. One program, called LifeWorks, 
provides employees and family members free confidential access 
to resources and counseling 24 hours a day, 365 days a year. 
This program offers expert guidance on health-related issues, 
addiction, grief and loss, financial ideas, how to parent a 
difficult child or teenager, and how to cope with stress.
    Constant Care, a second program offered by ManTech, is an 
internally staffed program available to employees 24 hours a 
day, 365 days a year, by human resource professionals who have 
the knowledge and experience to assist deployed employees and 
their families. Constant Care is similar to the Military 
Ombudsman program and, therefore, is familiar and well received 
by veterans and their families.
    As a result of retention efforts such as these, many of our 
new recruits come as referrals from existing employees, which 
accounts in part for ManTech being named Number Six Top 
Military Friendly Employers by G.I. Jobs Magazine, Most 
Valuable Employer for the Military by CivilianJobs.com, one of 
the country's most veteran-friendly employers by USAA Magazine, 
and the Top Ten Best Employer for Veterans by Military Times 
Edge Magazine.
    Now, let me comment on ManTech's experience with assembling 
and filing information regarding veterans and the Department of 
Labor. Logistically, the assembling and reporting information 
required by the Department of Labor for the VETS-100A is an 
automated process by database systems that capture employee 
information at the initial stage of the hiring process, when 
information required for payroll, health benefits, taxes, et 
cetera, is input into our systems when new hires join ManTech. 
Each new employee is asked to self-identify if they are a 
veteran, and this information is aggregated and reviewed by 
human resource specialists as well as by our senior management 
routinely throughout the year.
    Last, you have asked for our suggestions for improving the 
Federal Government's effort to facilitate the hiring of 
veterans by contractors. To answer this question thoughtfully, 
I engaged with several cognizant employees working in a variety 
of levels and roles. Whether human resource specialist, 
recruiter, or line manager, their answers were very consistent. 
All felt strongly that the Federal Government already takes 
many bold and aggressive actions to ensure maximum outreach to 
this important segment of our population.
    Further, we know that companies like ManTech have embraced 
veterans' outreach. After all, if we have not served ourselves, 
we each have family members and loved ones who have selflessly 
served our Nation or are serving today.
    Our recommendation is to stay the course with those efforts 
we have in place today.
    Madam Chairman, that concludes my oral statement and I am 
pleased to answer any further questions.
    Senator McCaskill. Thank you all very much.
    It was interesting. I try to visit small businesses in my 
State from time to time and I actually had a visit with a 
plumbing supply house in St. Louis, and this is not a large 
employer, less than 50 employees. The people that work there, 
most of them have worked there many years. So they want to be 
careful when they hire someone because they assume when they 
hire someone, they are going to be with them for years.
    I did not go there to talk about hiring veterans, but they 
brought it up with me. And the man that owns the company said 
it was incredibly difficult for them to find veterans, and he 
mentioned a couple of things and I would love your take on 
this, Mr. Daywalt.
    First, he said that the Web sites that in their experience, 
as they looked at the various listings on the Web sites, they 
were taken aback at how many people had put information on the 
Web site that were not veterans, that people had been able to 
access various Web sites and put their employment--that they 
were anxious to get employed, and then when they actually did 
the due diligence, they found that people were signing up on 
these Web sites that were not veterans at all. So they found 
that overwhelming. Because this is a small operation, they did 
not really have--they ended up working at this for a while. I 
mean, they spent a lot of time and energy. They finally found 
two applicants that they are in the final process of 
interviewing.
    The other thing he mentioned to me, and I would like your 
take on both of these issues, is matching. He said, at the 
veterans' jobs fairs and the places they were going to access, 
there would be employers there like banks and Enterprise Rental 
Car, Anheuser-Busch, and they needed people for their 
warehouse. They were not able to hire someone who was disabled 
because they needed someone who was going to help them load 
plumbing supplies into the warehouse and out of the warehouse 
and deliver these plumbing supplies. And he said it was clear 
to him how inefficient this was because you had all these 
employers that wanted a much different employee than he was 
looking for. And he said that, once again, took hours and hours 
of their time and effort to try to match up the right veteran 
with the right job opportunity.
    So if you could, if you would address those two issues that 
this particular employer in St. Louis was struggling with.
    Mr. Daywalt. Yes, Madam Chairman. Excuse me. I am suffering 
from allergies.
    Your comment about candidates in a job board database not 
being vets does not surprise me. There are a number of sites 
out there that do not validate who the person is that is 
putting up the resume. You have over 300,000 Internet job 
boards out there. You have about 30 left in the military space. 
The leaders are VetJobs, MilitaryHire, and Corporate Gray, and 
the three of us actually do validate each person that is 
putting up their resume. With some of the others, they will let 
anybody put up a resume. And in reality, most veterans do not 
put their resumes up on the Internet. We are getting over 
200,000 visitors a month, but we only have 140,000 active 
resumes, as it has been hammered into us that our friends over 
in the sandbox are using sites like VetSuccess or other free 
sites to track down veterans to go attack them here in this 
country. I wish the press would cover that more.
    But I hear that from a lot of employers because until they 
need to make a hire, they are not always aware of who the 
players in a given space are. It is sort of like I do not know 
any heart doctors, but if all of a sudden I needed to have a 
heart operation, I might start doing a lot of research to find 
out who is going to be a good one. So it is not a common thing 
that everybody uses on a daily basis.
    Regarding the matching, the more advanced sites--ours being 
one of them, MilitaryHire is another good example--have 
matching mechanisms and career assessment tests that we have 
people--we use the CRI tests out of Forth Worth, where we can 
identify a veteran that matches best with the employer. And the 
way you do it at VetJobs, we have customer service reps. When a 
customer puts up a job, and we have about 52,000 jobs up today, 
when they are key jobs, we will go into the database, identify 
people, and refer them in to our customers. We have had a 
pretty good success rate.
    But a lot of the complaints that he or she was voicing 
really comes from just not understanding how the system works 
and it is because it is not a system that is used day in and 
day out.
    Senator McCaskill. Well, what would you suggest, if 
anything, maybe part of the problem in this area is all of us 
want to help.
    Mr. Daywalt. Right.
    Senator McCaskill. And sometimes, all best intentions have 
ugly endings in government. And, frankly, I am beginning to 
believe that this reporting requirement to the Department of 
Labor is a good example of that----
    Mr. Daywalt. Yes, ma'am.
    Senator McCaskill [continuing]. Where all best intentions, 
where we were going to try to keep track of contractors hiring 
veterans, but no one is doing the due diligence to make that 
effort really meaningful in any way.
    What could we do that would help an employer like Crescent 
Plumbing Supply in St. Louis find veterans in a way that is 
more efficient for them? Now, these are great folks and they 
just kept working at it until they found two because they 
wanted to do this because they love their country and they want 
to hire veterans. But I am not sure very many businesses as 
small as this business is would have spent the time and effort 
they spent at it. What should we be doing to make this easier? 
I am surprised that your Web site would not pop up as one of 
the first if you went on to search ``hiring veterans''----
    Mr. Daywalt. We generally pop up in the top three or four.
    Senator McCaskill. And is it very clear on your Web site 
that all of the veterans on there have been certified as 
veterans?
    Mr. Daywalt. Well, yes.
    Senator McCaskill. OK.
    Mr. Daywalt. I mean, we have some people who put their 
resumes up that were not veterans. We take them out. But some 
suggestions to help improve the system, one would be to have 
your veterans' representatives at the workforce centers, what 
they call Local Veteran Employment Reps (LVERs) and Disabled 
Veteran Opportunity Programs (DVOPs)----
    Senator McCaskill. I speak that foreign language now.
    Mr. Daywalt. OK.
    Senator McCaskill. I have been on the Armed Services 
Committee for 6 years.
    Mr. Daywalt. We make jokes----
    Senator McCaskill. I can do the acronym dance with you.
    Mr. Daywalt. We make jokes, you have to have a dictionary 
to understand the military acronyms, but having more of them 
familiar with what goes on--and I am a little outspoken, I am 
not politically correct, but, madam, you have a lot of people 
in the DOL who are the classic bureaucrats. They would have a 
wonderful job if it were not for all these damn people coming 
in wanting help. And they do not take the initiative. And I 
will give you a real good example.
    We had a veteran down there in Georgia who needed a job. He 
is in his 50s. He had been sitting over at the DOL office for 3 
days trying to get help to get a job, and each day he would go 
in and say, ``Oh, we have you in the system now. Welcome back. 
You are in our system now. You are in the system now.'' He did 
not give a damn about being in the system. He wanted a job.
    So someone had him give us a call and we found out where he 
was living. He did not have a car. Did a Google search of his 
apartment and found a Publix supermarket, a Target, and a Wal-
Mart all within walking distance of his apartment complex. We 
called the managers of those three stores and all three of them 
said, send him over. They interviewed him. Two of them made a 
job offer and he took one of them. He went with Target because 
they paid more than the others. But we did all that inside of 
20 minutes.
    Why can you not have this $50,000 bureaucrat sitting on 
their butt in a nice air conditioned office do the same thing? 
Because there is no penalty and no incentive to go out and do 
it. I know that is not politically correct, but that is the 
brute reality and we deal with that day in and day out down in 
our office.
    But having them better educated as to what the real 
resources are for their local area, because all employment is 
on a local level----
    Senator McCaskill. Right.
    Mr. Daywalt [continuing]. And being able to direct somebody 
as to what are the good sites, what are the--we put out a 
listing of what we consider to be all the legitimate job boards 
on the Internet because there are so many rip-offsites, 
especially targeting veterans and their spouses. But that would 
be a big move forward if they would do that.
    Senator McCaskill. Well, I think we have to figure out a 
way to try to remove as much as this as possible from the 
Federal Government and put it in the State and local offices 
where frankly, they are going to be the ones that are going to 
have the best ears to the ground.
    Mr. Daywalt. Yes, ma'am.
    Senator McCaskill. Let me ask about--both Booz Allen and 
ManTech. You all have great records. Both of your companies 
told us that the reporting requirements were not burdensome on 
your companies. I am not sure that they are providing much 
value, but you did say they were not burdensome.
    Let me ask you this about the National Guard problem. Are 
the majority of the people that you are hiring actually those 
that are leaving active service as opposed to National Guard?
    Ms. Sullivan. I cannot talk to those statistics. I know 
that we capture those, and I could probably look through my 
files here and see what those numbers are.
    I was thinking about congressional mandate programs and one 
of the congressionally mandated programs that we absolutely 
love, and we know it has a high impact and it does make a 
difference and it has to do with those who are in the process 
of separating from the military and that is that TAP program. I 
think----
    Senator McCaskill. Right, the Transition----
    Ms. Sullivan. Yes. In the Army----
    Senator McCaskill. Transition Assistance Program?
    I think they call it the Army Career Alumni Program (ACAP). 
They might call it a little bit different. But this is where 
you can really, work with them and help them think through how 
to write a resume.
    Right.
    Ms. Sullivan [continuing]. I will look through our numbers, 
and I may not be able to comment here, but I do not think that 
the majority of them are National Guard or Reserves. They are 
typically ones who are separating from the military.
    Senator McCaskill. Right. If you would get those numbers 
for us, that would be helpful, Ms. Sullivan.
    Ms. Sullivan. Mm-hmm.
    Senator McCaskill. And how about you, Ms. Hardy? I assume 
the same thing is probably true for Booz-Allen, that the 
majority are those that are separating from active service?
    Ms. Hardy. Correct, and about 11 percent of our 30 percent 
of our hires self-identify as having recently separated, 
representing, one, the highest overall diversity constituency 
group within the firm, but also indicating that these 
individuals are coming directly from the military, from active 
duty to Booz Allen as a first stop.
    I do not have the numbers for the Reservists but we do 
capture them and certainly can provide that to the 
Subcommittee.
    Senator McCaskill. I think it would be really important to 
get those numbers, and let me ask you, Mr. Sulayman, I think 
this National Guard situation is a crisis. I think it is 
something that we are kind of sweeping under the rug and not 
paying close attention to. When I was the elected prosecutor in 
Kansas City, I remember looking at resumes and thinking the 
National Guard was a really good thing. Now, that was before it 
became an operational reserve.
    And I think the testimony that was given here today 
demonstrates the problem. These companies are not hiring people 
just because they want to hire a veteran. They are hiring them 
because they need them for their ongoing business operations 
and you cannot blame them for not wanting to hire someone and 
train them thinking they are going to be gone four or five 
times over a 6-or 7-year period, or 4 or 5 times over a 7-or 8-
year period, or even 4 or 5 times over a 10-year period.
    Now, I know we are drawing down in Afghanistan and 
obviously we have drawn down in Iraq, but I think that we have 
permanently injured the ability of the National Guard to get 
employment in our country by the way we have made these 
changes, and I do not think they were well thought out. I get 
it. We did not have enough boots and we had to do it because 
our ground force was not big enough, but what I do not think 
they anticipated that there was going to be this problem and I 
think it is one of the reasons that we have had some of the 
problems with suicides and some of the other issues that we are 
seeing in our military.
    What would you recommend that we could do, short of 
convincing our military leadership that they need to go back to 
the old way in terms of utilizing the Guard and the Reserve? 
What could we do that would help this problem?
    Mr. Sulayman. Well, ma'am, I mean, you really hit on the 
big crux of the matter, is that the National Guard and the 
Reserves have been used in unprecedented fashion in the 
conflicts in Iraq and Afghanistan. They have been used as an 
operational reserve. I know that in briefings I have been to at 
the Pentagon, the Army has talked about their Force Generation 
Model that they refer to as ARFORGEN. It envisions Guard and 
Reserve units activating at least once, or they say once every 
5 years. So out of every 5-year period, you can expect to be 
deployed out of the National Guard or Reserve, and more often 
if you are switching units and you happen to catch the unit at 
the right or the wrong time, depending on your opinion, in the 
cycle. And that is going to be a continued issue, particularly 
with smaller employers who can stand to absorb that loss less 
well.
    I know that what we have heard from our membership, 
somewhat anecdotally, is that they are not getting hired 
because they are in the Guard or Reserve and that employers 
have--it is one of the questions that they are often asked. Are 
you in the Guard or Reserve? Are you anticipating deploying any 
time soon? And that there are some bills both in the House and 
the Senate that are designed at strengthening the Uniformed 
Services Employment and Reemployment Rights Act (USERRA) 
protections and make that law a little bit tougher. But, 
really----
    Senator McCaskill. And USERRA protections are the 
protections that were put into the law that prohibit the 
discrimination against members of the Guard and Reserve in 
connection with their military service.
    Mr. Sulayman. Yes, ma'am. So having those employment and 
reemployment rights a little bit stronger, we believe is always 
a good thing. But we think that incentivizing employers it is 
better to dangle the carrot than break out the stick. We 
believe that most employers want to hire veterans. It is just, 
like you said, those concerns of missing out an employee who 
you anticipate having, especially if you are a small or medium-
sized business.
    That is really a tough question. We have been trying to 
work with employers through our Smart Job Fairs to convince 
them that here is the value of a Guard or Reservist and that 
they may be gone for a year out of a 5-year period, but their 
skills as managers and leaders are going to be sharper and--I 
deployed with a Reserve unit to Iraq. I was a light armored 
reconnaissance unit. We had, obviously, heavily mechanical and 
we had a lot of mechanics in the civilian world who I would say 
that after the 9-months that we were deployed, tearing engines 
out and tearing them apart and rebuilding them in a foot and a 
half of moondust sand in the Iraqi desert without any 
electricity, without any water, without any lifts, basically 
improvising all this, the Cummins diesel engines and 
transmissions, Detroit diesel engines that run the trucks that 
they repaired back in their civilian lives, that made them much 
better and more efficient at their jobs once they returned 
home.
    And that is really a job of selling that to potential 
employers, because the Army, as you said, and the Marine Corps, 
which is, I understand, going to operate on a similar Force 
Generation Model with respect to reserves, are not going to 
change that because of the operational commitments that we have 
and what they need to fulfill.
    Senator McCaskill. Let me turn to Senator Begich for some 
questions, and then I have some additional questions I will ask 
when he is completed. Senator Begich.
    Senator Begich. Thank you very much, Madam Chairman.
    First, I appreciate you all being here and giving us some 
insight on what we need to do about employment for veterans. My 
State has about 11, 12 percent of the population are veterans, 
the highest per capita in the Nation, so we have a lot of need 
and, as you can imagine, a lot of issues that come up.
    When I was mayor, just to followup on the Guard issue, the 
Employer Support for the Guard and Reserve (ESGR), we always 
signed up on it because we wanted to make sure people were 
taken care of no matter where they were. Is there an--let me 
just throw an idea and I have a couple of questions more 
specific to it. Anyone who wants to answer, and I will start 
with you, Ramsey, if it is OK. To create an incentive for the 
businesses to--they know they are going to be gone for a period 
of time. The question is how long can you keep those kind of 
jobs open. Is there, through tax policy, is there an 
opportunity to create incentives to incentivize them not only 
to hire them, but to keep that space open and creating flex 
schedules? I do not know who wants to answer----
    Mr. Daywalt. Yes, I will answer that, sir. I have testified 
about this several times in the past. Tax incentives, while 
nice and a ``feel good'' from a political standpoint, is not a 
driver to get people hired. And what I hear from employers, I 
mean, they love getting the people off active duty, but----
    Senator Begich. Right.
    Mr. Daywalt [continuing]. They would be more than willing 
to support members of the National Guard and Reserve if they 
were compensated for when their employee is taken away.
    Senator Begich. Got it.
    Mr. Daywalt. So if Sulayman works for me and he gets called 
up, I want a direct cash stipend so that I can hire a 
contractor to do his job until he gets back. That is the cost 
of doing business.
    Senator Begich. Get you.
    Mr. Daywalt. I cannot spend the tax credit. And one of the 
big problems with a lot of tax credits is that once the 
Department of Labor lays on all their tracking requirements, I 
may be getting $9,600 back, but it may be costing me $11,000 
for all of the reporting and tracking.
    Senator Begich. Just to keep track of that.
    Mr. Daywalt. And I am not going to make it up in volume.
    Senator Begich. So the better approach, at least from your 
view, is if there is an opportunity to do a differential, a 
cash differential for the period of time deployed so you can at 
least keep the work flow moving----
    Mr. Daywalt. Yes, but see, you have a bigger problem. It is 
a systemic problem. The USERRA was written for when people were 
gone on the weekend or maybe a 2-week active duty----
    Senator Begich. Right. Two weeks.
    Mr. Daywalt. It was not designed for people being going 
away for 12, 18, or 24 months. So it is out of--it is an 
anachronism. What is happening now, and we documented this when 
the Iowa brigade was called up, they had 750 people that were 
unemployed, a little over 30 percent of the brigade. They did 
not lose their jobs when they were over in Afghanistan. They 
lost their jobs before they left----
    Senator Begich. Right.
    Mr. Daywalt [continuing]. Because it is announced about day 
160 from mobilization day, and most of them lost their jobs 
between day 150 down to day 90 because the employers realized 
that if I lay you off under the guise of the recession, I am 
not subject to USERRA because I am not subject to USERRA until 
you have your orders in hand.
    Senator Begich. Got you.
    Mr. Daywalt. Now, if you say that we are going to make 
USERRA effective the moment you announce a unit, nobody will 
ever hire a member of the National Guard.
    Senator Begich. Right.
    Mr. Daywalt. You have a systemic problem. It is the way the 
Guard and Reserve are being used. And until you fix that 
problem, everything else is just going to be a band-aid.
    Senator Begich. Very good.
    Mr. Sulayman. Sir, I agree in large part with what Mr. 
Daywalt said, but, one of the things that also has to be 
considered is that less than one percent of the population has 
served in these conflicts.
    Senator Begich. That is right.
    Mr. Sulayman. So this is not a situation where World War II 
where you had, I think 11 percent is the figure--and so 
everybody had a brother, or cousin, or husband, or wife, or 
sister, or there was a relative, or a neighbor, somebody who 
was close to you. And so everybody had sacrifice. I mean, there 
was rationing of sugar, gas, and stamps. I mean, my grandfather 
went away and all his brothers, and it is interesting to hear 
my grandmother talk about, silk stockings, not being able to 
have stockings during World War II. And I think that is just 
weird. I mean, it is just something that is not in--and I have 
been in the Marine Corps for 14 years and that is something 
that just does not enter my mind.
    But I think employers have to understand that there is a 
sacrifice associated with the wars that have been fought and 
that while tax incentives or direct stipends, if those are the 
carrots that we come to understand are the best solutions and 
that we can afford to do, hey, that would be great. But it is 
also a matter of the country's shared sacrifice.
    Senator Begich. It is a moral obligation.
    Mr. Sulayman. Yes, sir. I mean, it is a moral obligation. 
The Reservists that I took over, a lot of them, as Mr. Daywalt 
said, lost their jobs before we left. Oh, hard economic times, 
your job is gone. And under USERRA, if the job disappears, you 
do not have to find another position.
    So employers understanding that this is part of the shared 
sacrifice, and hopefully as Afghanistan winds down, this 
becomes less and less of a problem. But as Senator McCaskill 
pointed out, with the unprecedented use and the Army Force 
Generation Model that I was talking about, it remains to be 
seen exactly what effect that is going to have in the future, 
continuing an operational reserve.
    So we really feel at IAVA that it is a moral obligation. It 
is a small percentage of the population that has been doing a 
lot of the fighting and multiple deployments and----
    Senator Begich. Let me hold you there, only because I want 
to get--I have one quick question left here, and it is a big 
question, but kind of--on January 11, the Government 
Accountability Office (GAO) reported how many different 
employment training programs there are--I think it is 40, 50--
between the Department of Labor, the Department of Veterans 
Affairs, and all these other miscellaneous. I am coming more 
and more to the feeling that maybe we consolidate these, put 
them all in the Department of Veterans Affairs, focus in that 
arena.
    Just give me a couple of quick thoughts. My time is pretty 
close to being out here. But I just think with so many 
Department of Labor tries, bless their soul, but veterans 
understand veterans and it seems like we should just shift it 
all, streamline it, and focus on what we should be doing, and 
that is employing and retraining and have the Veterans 
Administration do it in concert with their veterans benefit 
programs and all these other things they do. Any thoughts from 
folks?
    Mr. Sulayman. Yes, sir. There is----
    Senator McCaskill. Take your time. You do not need to 
hurry.
    Mr. Sulayman. OK. There is legislation in the House that is 
currently working its way through. I think it is H.R. 4072----
    Senator Begich. Right.
    Mr. Sulayman [continuing]. Which IAVA supports and is 
designed to take Department of Labor and the veterans program 
and transfer it wholesale to the VA. We subscribe to the same 
thinking that you have, sir, that Veterans Affairs is what a 
veteran thinks of when--where do I go for help? I am going to 
the VA. And the fact that the legislation is written to just 
basically make an address change is a good thing because it is 
not diminishing any of the functions of----
    Senator Begich. Right.
    Mr. Sulayman [continuing]. The vets program----
    Senator Begich. It seems like if you are a vet, you are 
coming in. You are trying to figure out, do I need some more 
education if I want to be in this job, and do I need any 
medical assistance and some of the issues that I might have had 
or might not have. But it seems like you want to do that just 
kind of in one place----
    Mr. Sulayman. Yes, sir, and DOL Vets has employment 
outreach and VA has employment outreach. And so having DOL Vets 
move and become VA Vets and do the employment for veterans at 
VA to us makes sense because it removes some of that 
duplicative effort that is over at VA and it just centralizes 
it all.
    And that is a little bit that I talk about in my testimony 
here, as well. With the numbers and the outreach for veterans 
small business, we feel that DOL--or VA should be a conduit, 
that DOL should be a conduit. If veterans come to DOL or VA 
looking for small business help and advice, they should go to 
the veterans outreach over at SBA because those are the 
experts, and that is the same thing we feel with DOL Vets 
moving to VA.
    Senator Begich. Madam Chairman, can I ask--Ted, were you 
about to say something to that issue?
    Mr. Daywalt. Oh, no.
    Senator Begich. Oh, OK. I appreciate it. Let me just end 
there. You actually answered my second question, which was on 
the small business. You got right to it, because I think the 
same thing, that we want to make sure it is as streamlined as 
possible. I know there are some good efforts being done with 
TAP and trying to move entrepreneurship. The TAP has a lot of 
work to be done. I think the mind of a soldier going into and 
having to take that program and figure out how--they are not 
focused on that. I mean, they are focused on, thank God, I am 
now doing XYZ. I have to go to where now for what?
    And I think the more we can improve that, but also 
entrepreneurs seem like a huge opportunity for veterans. I just 
met some in Alaska on some small companies, all veterans, 
incredible work they are doing, worldwide operations now, small 
little manufacturing business but very precise. They took their 
skill, turned it into a business that struggled getting their 
business together, but because enough of them banded together, 
they have some capital. It just seems like that is an 
incredible track for veterans. As someone who comes from a 
small business world, it seems like this is a huge opportunity 
for the innovation. Ted.
    Mr. Daywalt. I would like to add to what you just said, 
Senator. I am on the Small Business Council at the U.S. Chamber 
and I have had--I have submitted 11 different ideas of how to 
help the National Guard and Reserve, one of which is for the 
government to put up a pool of money so that--and this would 
only help maybe 12, 14 percent of the people in the National 
Guard--but a pool of money where they can draw on, no interest 
or low interest notes so they can buy a franchise.
    Senator Begich. Yes.
    Mr. Daywalt. There are a lot of advantages to that, because 
veterans tend to hire other veterans. Everybody in VetJobs is 
either in the military, married to the military, or a child of 
the military--do not tell the DOL that, they will say I am 
discriminating--but we do. And if they are in the Guard, you 
cannot file a USERRA complaint against yourself.
    Senator Begich. Right.
    Mr. Daywalt. And while they are gone, their family can be 
running it while they are deployed, and then when they come 
back, there is no employment problem. There is no loss of 
benefits. There is no loss of income. But it will only help 10 
to 14 percent of them, and there are a lot of other things to 
help the others, but entrepreneurship--veterans, study after 
study--Booz has done a great study on that--shows that some of 
your best entrepreneurs----
    Senator Begich. Are veterans.
    Mr. Daywalt [continuing]. Were prior military because they 
have that all important quality called leadership and they can 
understand risk----
    Senator Begich. That is right.
    Mr. Daywalt [continuing]. Because if I made a mistake out 
there, it cost some of my troops their lives. So you can make a 
decision very quickly. And so entrepreneurship would be a big 
part. There is no silver bullet.
    Senator Begich. Right.
    Mr. Daywalt. I am always fascinated when I come up here, 
because everybody is looking for the one silver bullet that is 
going to solve all their problems. Your problem is 
multifaceted. There is no one silver bullet. So you are going 
to have to do 11, 12, 13 things, and none of them are cheap.
    Senator Begich. Right. I will just end with this comment. 
Thank you, Madam Chairman, for the chance to ask a couple of 
questions. Again, thank you all for doing what you are doing.
    But you are right on the franchise piece. I have seen some 
good reports and franchisers, which I have looked into many 
times in my years, the veteran component, they look for because 
of just what you said, because they know when they say, OK, 
build five stores, it is like a mission and they are on it and 
they figure out how to move through it. But their issue is 
capital. It is always--because when you do a franchise, there 
is no $5,000 issue. It is a $50,000 to $250,000----
    Mr. Daywalt. Or more.
    Senator Begich [continuing]. Or more, depending on the 
franchise you get.
    Mr. Daywalt. The International Franchise Association 
sponsors a group called VetFran. We are a part of that.
    Senator Begich. Yes.
    Mr. Daywalt. And they have a big initiative going on this 
summer, and the VFW and some of the other VSOs are getting 
involved with it now. We think that is a good solution.
    Senator Begich. Yes.
    Mr. Daywalt. But there----
    Senator Begich. It is a piece.
    Mr. Daywalt. It is a piece to the puzzle.
    Senator Begich. Thank you, Madam Chairman.
    Senator McCaskill. Maybe we could do away with some of the 
bureaucracies around this issue and take that savings and put 
it into a fund that could----
    Senator Begich. If we do----
    Senator McCaskill [continuing]. For low-interest loans 
and----
    Senator Begich. Combine the Department of Labor over with 
Vets. Take that savings.
    Senator McCaskill. And it is more than just the Department 
of Labor.
    Senator Begich. Oh, yes, it is. Yes.
    Senator McCaskill. There is something touching veterans in 
almost every agency of government, all for the right reason, 
because people wanted to help veterans. But what we have done 
is we have spawned, and what this hearing today has shown is 
that one piece of that we have exposed is this report that 
everybody is supposed to file. You guys are doing a great job. 
They do not even have your data. One of the data they had 
showed that somebody hired--you were not here, Senator, but the 
Committee got data from the Department of Labor that showed 
that one company hired 400 percent veterans more than they 
employed, than their total employees.
    So, clearly, we are----
    Senator Begich. We want more of those companies. 
[Laughter.]
    Senator McCaskill. Well, yes. I mean, the data is like a 
joke. It is like a bad joke.
    Let me ask, the certification of this is something that was 
scandalous that the SBA had to deal with, where it was 
discovered that somebody was claiming to be a veteran, was 
getting the advantages of being a veteran, and was not a 
veteran. And even worse, I believe the example that brought 
this to light was they were claiming a service disabled veteran 
and they were not even a veteran.
    So, first, how can we certify veterans for advantages that 
we try to put into the law for them in a way that does not 
hinder the entrepreneurship of them as they move into the 
business world, and second, what about fronting? How many 
veterans are being hired to front for companies to get the 
benefits that are associated with a veteran-owned business? In 
your experience, have you all seen that? And if so, do you 
think the government even dents the surface of getting at 
fronting?
    Mr. Sulayman. Well, ma'am, I can tell you that I have heard 
of fronting. We have not heard anything anecdotally and I have 
talked to folks at SBA and VA and DOL on those issues a couple 
times.
    The process that the VA goes through right now to certify 
veteran contractors, veteran businesses, is apparently 
statutorily mandated, and I understand that the intent was to 
eliminate some of those issues and abuses. But it has also made 
it very difficult for veteran-owned companies, whether they are 
small--whether they are service-disabled veteran-owned 
businesses or just veteran-owned businesses, to get into the 
system. And you were talking about some of the bureaucracy. If 
you look at--there is vetbiz.gov, which is the VA's site, and 
then there is fedbizops.gov, which is, I guess, the general 
site. There are multiple touch points and I think that makes it 
difficult for veterans to understand where they need to go and 
what they need to do.
    Anecdotally on that point, I have heard several veterans 
who have gone through the VA's credentialing process and think, 
OK, now I can do business with the Federal Government, only to 
find out that they never had to go through that process to do 
business with the other arms of the Federal Government.
    And we certainly have heard, not necessarily from our 
membership but through the media and news, about instances like 
SBA and veterans either fronting or companies claiming to be 
SDBOs or veteran-owned businesses that are not. And SBA, in 
talking to the veterans outreach folks over there, they said 
that, historically, the rate is very low.
    So we think that the self-certification that is used by SBA 
is probably the way to go, but maybe add some small barriers, 
you have to produce a certificate of incorporation or you have 
to produce incorporation documents that show a veteran and the 
veteran's DD-214, something that is a little bit more than 
self-certifying. What exactly that would be and how best that 
would be done, I could not say off the top of my head, but I 
think adding some small hurdles, while still allowing that 
small business to have a low barrier to entry into business 
with the Federal Government, is probably the way to go, and I 
think you would weed out most of that.
    Fronting, I think, really, at that point, I mean, just 
taking somebody to the woodshed, judicially speaking, is 
probably the way to end that.
    Senator McCaskill. I just wonder if we were even doing the 
oversight that is necessary to find the fronting. I mean, what 
this hearing has taught me is that we are not really paying 
attention. We are passing laws and then we are not paying 
attention, and that is why we are going to try to stay on this 
from a contracting standpoint and try to continue to pay 
attention to see if we cannot--I am just, dollar, bet you a 
dime, that it is going on out there, but it has not been 
uncovered in any way.
    Let me ask you, Mr. Kympton, I am fascinated by your 
organization. It is a win-win-win-win-win-win-win. I assume 
that all of this is being done with charitable donations. Are 
there any government funds that are involved in your 
organization whatsoever?
    Mr. Kympton. Madam Chairman, there are no government funds 
at this time, no.
    Senator McCaskill. And what is the amount of stipend? I 
mean, if someone is on a fellowship with your organization, how 
many can you do a year, and how big is your organization's 
budget, because we should--this is a great example of where the 
private sector does--the not-for-profit sector does a much 
better job than government in trying to assist not only the 
veterans, but the community writ large as it relates to the 
various organizations that you get fellowships in. How does 
this work? Are the various organizations providing the money or 
do you provide the money for the stipends during the 
fellowship?
    Mr. Kympton. Madam Chairman, our loose planning figure for 
a fellowship is $10,000 per fellowship, and what that funds is 
6 months of living stipends for the fellow so that he or she 
can work in a volunteer capacity within whatever organization, 
whether that is Habitat for Humanity or the Boys and Girls 
Club. And all of that money comes currently from private 
dollars, either corporate corporations or individuals who have 
seen the value of placing veterans within these nonprofit and 
community service organizations.
    So the living stipend that we pay them so that they can 
serve in a volunteer capacity represents roughly $7,000 of that 
$10,000, and it is pegged to the AmeriCorps living stipend. So 
we pegged it on something that is out there. It varies by 
location. It varies by the cost of living in that location. 
And, again, the intent is so that they can serve in a volunteer 
capacity, reconnecting to a mission, while they are also 
working toward a longer-term outcome for the contract, whether 
that is full-time employment either with the organization in 
which they are serving or one that they have targeted as a 
place that they would like to serve, or as a segue into 
continued education, or placing them in that ongoing role of 
service in their community.
    Senator McCaskill. Are you a United Way agency?
    Mr. Kympton. No, we are not.
    Senator McCaskill. So how many veterans are you serving on 
an annual basis in this capacity?
    Mr. Kympton. This year, we have targeted internally 
somewhere between 400 and 500 fellows. Most recently, we have 
organized these fellows into classes, cohorts, a very military 
concept. So we brought 114 fellows together in San Diego and 
started them as a class, and then after their 3-day orientation 
in person, a very kind of military flavored orientation----
    Senator McCaskill. And how do you find these veterans, or 
how do they find you?
    Mr. Kympton. The most prolific source of recruitment right 
now for us are our former fellows or the volunteers who have 
served with us in communities and have seen what these fellows 
are capable of.
    Senator McCaskill. Have you done National Guard folks?
    Mr. Kympton. We have, yes.
    Senator McCaskill. It seems like, to me, this might be a 
good fit for the National Guard, because if you are talking 
about a 6-month fellow, someone who has been deployed and has 
come back and is serving in the National Guard, I mean, maybe 
this model is something that we could try to promote, not 
through government but in the private sector, to actually focus 
on the National Guard population, because it seems to me that 
the flexibility that a not-for-profit represents in terms of 
not being as worried about future deployments upsetting the 
entire business model of a not-for-profit makes a lot more 
sense than maybe some of the other kinds of work that a Guard 
or Reservist could look for.
    Mr. Kympton. Madam Chairman, I can tell you both 
anecdotally and with data that the organizations in which our 
fellows serve deeply respect what they have brought to those 
organizations in terms of the skill sets----
    Senator McCaskill. Right.
    Mr. Kympton [continuing]. And the unique experiences, and 
plus they are getting a volunteer who are bringing all of those 
skill sets and experiences to the table. So they keep coming 
back to us. We have placed more than one fellow at Habitat for 
Humanity and I believe that is due to the impact that these 
veterans are having on those organizations.
    Senator McCaskill. I bet they really give those 
organizations a shot in the arm in terms of morale and passion 
and focus. I think it is a terrific organization.
    I want to give Senator Carper a chance. Am I calling on you 
before you are ready? I have more questions if you need time.
    Senator Carper. I am ready. Thank you.
    Senator McCaskill. OK. Senator Carper.
    Senator Carper. Thank you, Madam Chairman.
    To our witnesses, welcome. It is very nice to see Ted 
Daywalt again, and we welcome each of our witnesses.
    Senator McCaskill. Just put your sign up here so the people 
watching on C-SPAN know who you are.
    Senator Carper. Thank you. Who is that guy, anyway, sitting 
next to Claire McCaskill? [Laughter.]
    Just, like, airdropped in from the Finance Committee. Here 
we are.
    But I just want to express my thanks. Some of you, and I do 
not know if you have talked about it here today, we have a 
situation going on where I am a former veteran, Navy guy like 
Ted, and the idea of being able to pursue a degree or post-
secondary program while on active duty, being detached, 
deployed around the world, I mean, that is great. That could 
be--it is a great model, because the nature of the work you do 
in the military is you are gone a lot and it is just great.
    Unfortunately, and we have some folks whose distance 
learning colleges and universities, some of them do a great job 
in screening people, preparing people for these programs, 
making sure that they get the tutoring that they need and a lot 
of support and they are actually being prepared for jobs that 
will enable them to be productive citizens and pay off whatever 
their loans or debts might be that relate to their education. 
Not everybody is wearing a white hat, though, in that industry, 
as we know.
    As Mr. Daywalt knows, some of us have been working on 
legislation that says, let us go back and actually revisit the 
way the law used to be. It used to be that 15 percent of the 
revenues of a proprietary school had to come from sources other 
than the Federal Government and 85 percent could come from the 
Federal Government. And then that was changed to 90 percent 
could come from the Federal Government but 10 percent had to 
come from other places. Now the rules are such that 10 percent 
that can come from other places can come from the G.I. Bill and 
from tuition assistance for folks that are on active duty. So 
we have literally got 100 percent of a college's or 
institution's income can come from the Federal Government, no 
skin in the game. Not a good situation. So we are trying to 
address this and work our way back to a real 90-10 rule where 
10 percent of revenues have to come from someplace other than 
the Federal Government.
    I wanted to just ask, if I could, of Mr. Daywalt, and 
others if you want to jump in here, employers, we know, are not 
readily snapping up some of our veterans. Some, they are, but 
some, they are not. But even those that have completed their 
college degrees using G.I. Bill benefits. And I guess one of 
the questions is, why is that, and could there be some 
correlation here between the quality of the post-secondary 
training that folks are getting from the G.I. Bill or from 
tuition assistance and whether or not it is doing as much in 
terms of job preparation as we think it ought to be getting? 
Could you just speak to that, Ted?
    Mr. Daywalt. Sure, sir. I will start by saying that if we 
did not have the National Guard problem, we would not be 
sitting here talking about veteran unemployment today because 
what we see, overall, the bulk of the veterans coming off 
active duty are getting employed, or they go back to school and 
then they get employed. But when they are totally separated, 
employers want to hire you. It is that National Guard issue 
where the real veteran unemployment issues lies.
    If we were talking about this problem 20 years ago, it was 
the over-50 veteran that could not get a job. And then DOL did, 
I think, what was one of the best programs it ever did, was put 
in these computer training programs in all the workforce 
centers, and within 6 months, the unemployment rate went from 
the 20s down to, like, 4 or 5 percent.
    Senator Carper. Is that right?
    Mr. Daywalt. Because they have the skills. They just did 
not know how to use the computer. In today's environment, if 
you cannot use the computer, you are illiterate. But the real 
unemployment problem--the overall unemployment rate for all 
veterans right now is 7.7 percent, using the CPS numbers. It is 
that young veteran that is in the National Guard is where your 
real problem is at.
    But to your question, employers want to hire them. We have 
what, 5,000, 6,000 companies that use VetJobs on a regular 
basis. I can only think of one company I have ever dealt with 
that I would say was anti-military.
    Senator Carper. Out of how many?
    Mr. Daywalt. Over 5,000.
    Senator Carper. Whoa.
    Mr. Daywalt. Only one that I would call anti-military. 
Now--and the government contractors, I know there is going to 
be a big stink about what The Weather Channel did with a major 
here recently, but for the most part, when there are USERRA 
problems in a company, it is because an individual made a 
stupid judgment, not--it is not corporate policy. But, overall, 
they do want to hire them, sir.
    You have to fix a systemic problem. If you fix the 
problem--go back to the change of policy on January 11, 2007--
in 2006, the unemployment rate for your 18 to 24-year-olds was 
only about 10 percent, thereabouts. In 2008, it went up--I 
mean, at the end of 2007, it went to over--like, 23 percent. 
And the employers started saying, wait a minute. If you are 
going to take my employee away for up to 48 months out of any 
60, I am not going to keep them, and that is why it doubled, 
and it doubled in the young ones because that is where most of 
the members of the National Guard are your 18-to 29-year-old 
veterans.
    You get rid of that systemic problem, you will not need a 
hearing like this today.
    Senator Carper. OK. Any other comments on the issue? What I 
am looking for is the correlation between folks that are using 
our G.I. Bill and maybe tuition assistance and it is not 
preparing them for a real job.
    Mr. Daywalt. Well, it does prepare them. The G.I. Bill is 
working. It gives people--they go in--Student Veterans of 
America and IAVA both have been very active helping people to 
get into the schools. When they come out of the schools on the 
other side, it prepares them. And a lot of great companies--
ManTech is a good example, where they bring people in and they 
train them. They do not want to hire veterans, but they do not 
want them taken away. It is a simple problem.
    Senator Carper. Yes. Ms. Sullivan?
    Ms. Sullivan. So in thinking about any stones left 
unturned, and I was glad that you brought up the G.I. Bill, so 
certainly ManTech is as networked as anybody. We have a 
successful program. Our numbers speak for themselves. It is 
part of our culture. It is a part of our company, how we 
operate.
    But there is one thing that I heard universally from people 
with inside of ManTech of, is there some stone unturned that 
really could make the difference, really move the needle in a 
significant way, and certainly I am not expert on this, but 
something for all of us to consider is, is there a way for 
veterans who are leveraging the G.I. Bill and trying to improve 
their skill set so they become more employable, something that 
we see is many times veterans who are leveraging that G.I. 
Bill, in the process of getting their education or more 
training, they lose their security clearance. And for an 
employer like ManTech, and most of our work is mission oriented 
so it serves the Department of Defense or serves the 
intelligence community, that ability to have a security 
clearance, an active one, is a very necessary component, and 
that part of the market is still a good market and it has 
competitive pay.
    So anything that could be done to help preserve that 
clearance, maybe, I do not know, put it in a deep freeze or a 
deferral mode versus just cancel it outright, I think could be 
a real needle mover for everyone.
    Senator Carper. OK. Thanks.
    Senator McCaskill. That is a great idea.
    Senator Carper. Yes. Thank you very much.
    Any other comments on this issue? Yes, sir.
    Mr. Sulayman. Yes, sir. I know you are probably used to 
hearing Tom Tarantino talk about the G.I. Bill issue on IAVA's 
behalf, but that is something that, definitely, we thank you 
for your leadership on with trying to change the 90-10 rule, 
and we have heard anecdotally, and we think we have plenty of 
examples and there are plenty of statistics to back up the idea 
that veterans, in trying to take advantage of the best career-
ready training program that is out there, which is the G.I. 
Bill, especially the Post-9/11 G.I. Bill now that it can be 
used for licenses, certifications, not just for post-secondary 
education, but professional degrees and trades and everything 
else, basically----
    Senator Carper. It is even transferrable, I believe.
    Mr. Sulayman. And transferrable to----
    Senator Carper. Family members.
    Mr. Sulayman [continuing]. To children and spouses and, I 
mean, it is----
    Senator Carper. What a deal.
    Mr. Sulayman. It is an awesome program. But we----
    Senator Carper. I think when we came back from Southeast 
Asia at the end of the Vietnam War, I think we have about $200, 
$250 a month.
    Mr. Sulayman. Right, and there was a big differential 
between the post-World War II G.I. Bill and the G.I. Bill for 
the Vietnam era veterans. And this, the Post-9/11 G.I. Bill, 
really restored some parity more on the level of the post-World 
War II G.I. Bill and can be a game changer, and a lot of 
institutions sprang up, as they did after World War II, to take 
advantage of that and take advantage of some of the loopholes. 
And we have found from our membership that really has been an 
issue for them, with not completing degrees because they have 
exhausted the G.I. Bill on, quite frankly, really expensive 
degrees that were not going to prepare them for the jobs they 
were taking--criminal justice technology, for instance.
    I had a small business before I got deployed in 
construction. I was reviewing some of the online universities' 
courses in construction management technology and I could not 
figure out how that would have applied to any of my 
subcontractors that I used or me as a project manager for a 
Fortune 500 construction company. It was really--and that is 
one of those things, where if you go to school and you get that 
degree and then you go out looking for the job or you try and 
startup a business as a small contractor and want to do 
business with Federal, State, or local governments in 
construction, those sorts of things, that is not going to 
impress anybody and help you out, and that is one of the things 
that we have found as we have looked at the issue.
    Senator Carper. All right. Anybody else?
    Mr. Daywalt. To Ms. Sullivan's issue about security 
clearances, we hear that all the time, and there is a solution 
but it is going to take a change of paradigms over at DOD. In 
our country, unlike in Europe, the individual does not have the 
security clearance. The billet or the job has the security 
clearance. And then when you step out of that billet, you are 
no longer cleared. Now, at the TS/SCI level, you have up to 6 
months to get back into a job at the TS/SCI level. Otherwise, 
you have to start all over again with a brand new special 
background investigation, very expensive, which is why we 
always make jokes that when one government contractor hires 
someone at the TS/SCI level, especially with polygraph, they 
have not filled a job, they have created a vacancy someplace 
else.
    When the person goes to school, when they get out to go 
back to work, they have to start all over again. So the 
solution is to create some billets that would be holding 
billets so that, like when I stepped out of the Navy, I had a 
TS/SCI, since I left Naval Intelligence, and if I wanted to go 
back to school, I would be put into a billet that leaves me at 
that security clearance, even though I am not working at it, 
now when I go to apply for a job, I already have my TS/SCI in 
place so that I can go into a job requiring a security 
clearance because I would be switching from that billet to 
whatever billet I go to work for in that company. That would be 
a solution.
    Now, a lot of your unions want to fight that because then 
they cannot do the background checks and everything else at 
DSS, but--and the same problems with the certifications of 
veterans. We have talked for years about if a guy drives a 
truck in the military, he could get a commercial driver's 
license (CDL) or be able to get an emergency medical technician 
(EMT) license or whatever in the civilian world, and everybody 
says they are in favor of it until it gets on the floor of the 
House and the unions say, oh, no, no, no, no, no, no, no. We 
are not going to have them come out and compete with us. But 
that would be a simple way to fix part of that problem.
    Senator McCaskill. I think we passed that, did we not?
    Senator Begich. We did, and also, there is a program that--
I am not sure 100 percent agree with you, because there is a 
program called Helmets to Hardhats that the unions actually 
organized, because they are in huge needs because the trades 
are averaging 52 to 55 years old and they need replacements 
very quickly. And so I am not sure that old paradigm of one 
group against is there because the legislation we passed starts 
opening up the doors.
    Senator McCaskill. Right.
    Senator Begich. But I know the Helmets to Hardhats program, 
at least in my State, has been somewhat successful. That is 
why, when I walked out of here, it was with the labor union 
about what they are doing.
    Mr. Daywalt. And the purpose of Helmets to Hardhats is to 
recruit people into the unions, which is great. I mean, unions 
are good. But let us not stand in the way of--if you are an 
electrician in the Army and you come out, you have been in the 
Army 25 years, you are not going to go to Detroit and start as 
a journeyman electrician, but that is what the union wants you 
to do. You are going to go to Right to Work States where you 
can make a decent wage and not start at $8 or $9 an hour and 
work your way up through some union bureaucracy. That is brute 
reality. I come from Realsville. I am sorry.
    Senator Carper. All right. Mr. Kympton, do you want to say 
something, and then I am done. Thank you.
    Mr. Kympton. Yes. Thank you, Senator. At The Mission 
Continues, we are using the vehicle of service as a 
reintegration strategy for veterans and are finding that it is 
leading to employment, it is leading to continued education.
    Currently, Madam Chairman, as you asked, we are not 
receiving any Federal funding to do that. I believe that the 
G.I. Bill represents an opportunity to expand what we allow 
veterans to focus that funding on and to choose the training 
program or the education program that they want to use as a 
vehicle to further employment. And that vehicle of service, 
funding a 6-months in service or funding a year in service, 
might just be possible within the G.I. Bill itself.
    Senator Carper. OK. Thanks.
    All right. Thanks, Madam Chairman. Thanks very much. Thanks 
for holding this hearing and letting me slip by and ask a 
couple of questions.
    Senator McCaskill. Thank you. Senator----
    Senator Carper. Captain, nice to see you.
    Senator Begich. I do not. Actually, my last question was 
just on that, the VOW to Hire Heroes Act, which is the one we 
passed. I know one potential might be, and maybe it is here, 
maybe it is in the Veterans Committee, is kind of see where 
that is going, because the goal of it is to start making sure 
that if you are an electrician in the military, that you can 
make that transition into the private sector without having to 
retrain, recertify, going through the process. That legislation 
that was passed last year, or this last several months ago, was 
pretty significant.
    So it may be that it is a question we need to ask, I do not 
know if it is here or given to the Veterans Committee, kind of 
where that is at and how that is progressing, because that is 
one of the biggest complaints I hear, that we see people who 
are--if you are a truck driver in Afghanistan, you can be a 
truck driver anywhere is the way I look at it. But they need to 
get the legislation that is passed and what DOD is doing on 
that, so just a little side note there.
    Senator McCaskill. Let me finish up with this VETS-100 
form. Do the two businesses represented here, do you feel like 
going through the requirement of filling out this form, has it 
in any way been beneficial to your company, even though clearly 
the Department of Labor is not paying any attention to it?
    Ms. Sullivan. We aggregate so much information because we 
are publicly traded, so any information that we collect or 
report, it comes up to management's attention. I do not think 
we have ever looked at, to my knowledge, the VETS-100A as a 
management tool or resource. To that end, typically, because we 
are publicly traded, there are a lot of reports that we have to 
file relative to compliance, such as the Securities and 
Exchange Commission (SEC) reporting and other things.
    Senator McCaskill. Right.
    Ms. Sullivan. So I am not sure that we have ever stepped 
back, the compliance part, and really thought about it in that 
sense.
    Senator McCaskill. I am wondering, if we made these public, 
if it would help. I mean, if the data was publicly available, 
would you all not notice that they did not have your data?
    Ms. Hardy. Madam Chairman, we think providing public access 
to all vets data would encourage other companies to step up 
their practices and provide contractors with more information 
about the government's internal use of the data will lead to 
new and creative solutions. So we think transparency is the 
right approach.
    Senator McCaskill. Yes. I think one of the reasons that 
this data has been such a waste of time is because no one has 
been paying attention to the fact that they are not paying 
attention to it, whereas if it had to be publicly posted, 
perhaps the agency would feel--and they are not here today, but 
they will hear from us. We will make sure that they are aware 
that we have discovered that no one is paying attention. They 
are not checking this data. They are not validating the data. 
They are not sharing the data. It is just a check that someone 
is making in a box somewhere and taking energy from companies 
that are doing it. But, frankly, if you are not doing what you 
are supposed to be doing, I do not think anybody over there 
would ever know it, the way it is being operated now.
    So perhaps the way we do it is to before we try to do away 
with it, we try to make it public and see if it could come to 
some good and make it transparent before we actually try to 
say, let us--unwinding legislation that was put into place 
because people were trying to help a real problem is hard. I 
mean, speaking of SEC companies, look at Sarbanes-Oxley, right? 
I mean, it has become ingrained in our business world, and I am 
not sure that it accomplished what we wanted it to accomplish, 
other than providing full employment for a whole lot of lawyers 
and accountants.
    Ms. Sullivan. So I realize that some of the questions might 
come on reporting, and when I talk to folks inside of ManTech 
who are more closely related to compliance reporting and this 
report and everything, at the end of the day, from a very 
practical sense of being an employer and doing the kind of work 
that we do, it does not change our behavior any because we are 
so mission focused. The work that we have are for positions 
required by the government that are very mission focused. So we 
are going to do what we need to do anyway, and it is--so it is 
not--one way or the other, it is not going to change our 
behavior.
    Senator McCaskill. Yes. I think it is time that we step 
back from all of this and look and see what is a meaningful way 
for the government to impact this problem, because I do not 
think this is a meaningful way to impact it. There are 
meaningful ways we can. I think the new G.I. Bill is one way, 
if we can get our act together and ferret out these people that 
will have a special place where for taking advantage of 
veterans and their families to cabbage up their benefits 
without giving them one iota of educational benefit.
    But organizations like Mr. Kympton's and Web sites like Mr. 
Daywalt's, those are the things that are going to make the 
difference, and tackling this Guard problem, really focusing on 
the Guard problem, since that is really what is driving these 
unemployment numbers. But those that want to do the right thing 
because it supports who their company is will do it. Those that 
do not will not, and I am not sure turning in a report to the 
government is going to have one bit of impact on that.
    So we will go forward from here. If you would get us your 
information on Guard and Reserve hires, because I think that 
will be instructive to us. If there is anything that you all 
can add to the record about things that we should unwind that 
the Federal Government is doing now, programs that should be 
consolidated, there is a big controversy about moving all of 
these programs into VA, and some of that is turf. Some of it 
may be legitimate. There are those even, Mr. Sulayman, that 
think we should move the SBA functions around veterans' 
programs over to VA. I think the jury is out on that. But I 
want you all to feel comfortable continuing to give information 
to this Subcommittee as we track this.
    I wish I could tell you that government contractors are 
doing a good job of hiring veterans, but unfortunately, the 
government's incompetence in this area has made that impossible 
for us to know. We have two good examples here today of 
companies that are doing the right thing, and by the way, it is 
a pleasure for me to compliment contractors. As you might know, 
most of the time when I sit in this chair, I am not doing that. 
Most of the time I am sitting in this chair, I am doing the 
opposite of that. So it is pleasant for me to compliment you on 
the work you are doing in this regard.
    Thank you all for being here today and we will continue to 
try to focus on this problem, and in a meaningful way that does 
not cause businesses too much of a headache and ultimately 
helps veterans get where they need to be, and that is gainfully 
employed in a career where their leadership has a chance to 
shine.
    Thank you all very much. The Subcommittee is adjourned.
    [Whereupon, at 11:46 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T5216.001

[GRAPHIC] [TIFF OMITTED] T5216.002

[GRAPHIC] [TIFF OMITTED] T5216.003

[GRAPHIC] [TIFF OMITTED] T5216.004

[GRAPHIC] [TIFF OMITTED] T5216.005

[GRAPHIC] [TIFF OMITTED] T5216.006

[GRAPHIC] [TIFF OMITTED] T5216.007

[GRAPHIC] [TIFF OMITTED] T5216.008

[GRAPHIC] [TIFF OMITTED] T5216.009

[GRAPHIC] [TIFF OMITTED] T5216.010

[GRAPHIC] [TIFF OMITTED] T5216.011

[GRAPHIC] [TIFF OMITTED] T5216.012

[GRAPHIC] [TIFF OMITTED] T5216.013

[GRAPHIC] [TIFF OMITTED] T5216.014

[GRAPHIC] [TIFF OMITTED] T5216.015

[GRAPHIC] [TIFF OMITTED] T5216.016

[GRAPHIC] [TIFF OMITTED] T5216.017

[GRAPHIC] [TIFF OMITTED] T5216.018

[GRAPHIC] [TIFF OMITTED] T5216.019

[GRAPHIC] [TIFF OMITTED] T5216.020

[GRAPHIC] [TIFF OMITTED] T5216.021

[GRAPHIC] [TIFF OMITTED] T5216.022

[GRAPHIC] [TIFF OMITTED] T5216.023

[GRAPHIC] [TIFF OMITTED] T5216.024

[GRAPHIC] [TIFF OMITTED] T5216.025

[GRAPHIC] [TIFF OMITTED] T5216.026

[GRAPHIC] [TIFF OMITTED] T5216.027

[GRAPHIC] [TIFF OMITTED] T5216.028

[GRAPHIC] [TIFF OMITTED] T5216.029

[GRAPHIC] [TIFF OMITTED] T5216.030

[GRAPHIC] [TIFF OMITTED] T5216.031

[GRAPHIC] [TIFF OMITTED] T5216.032

[GRAPHIC] [TIFF OMITTED] T5216.033

[GRAPHIC] [TIFF OMITTED] T5216.034

[GRAPHIC] [TIFF OMITTED] T5216.035

[GRAPHIC] [TIFF OMITTED] T5216.036

[GRAPHIC] [TIFF OMITTED] T5216.037

[GRAPHIC] [TIFF OMITTED] T5216.038

[GRAPHIC] [TIFF OMITTED] T5216.039

[GRAPHIC] [TIFF OMITTED] T5216.051

[GRAPHIC] [TIFF OMITTED] T5216.052

[GRAPHIC] [TIFF OMITTED] T5216.053

[GRAPHIC] [TIFF OMITTED] T5216.054

[GRAPHIC] [TIFF OMITTED] T5216.055

[GRAPHIC] [TIFF OMITTED] T5216.056

[GRAPHIC] [TIFF OMITTED] T5216.040

[GRAPHIC] [TIFF OMITTED] T5216.041

[GRAPHIC] [TIFF OMITTED] T5216.042

[GRAPHIC] [TIFF OMITTED] T5216.043

[GRAPHIC] [TIFF OMITTED] T5216.044

[GRAPHIC] [TIFF OMITTED] T5216.045

[GRAPHIC] [TIFF OMITTED] T5216.046

[GRAPHIC] [TIFF OMITTED] T5216.047

[GRAPHIC] [TIFF OMITTED] T5216.048

[GRAPHIC] [TIFF OMITTED] T5216.049

[GRAPHIC] [TIFF OMITTED] T5216.050

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
